                        AUDIT REPORT

Audit of NRC’s Safety Training and Development for Technical Staff

                        OIG 13-A-14          March 14, 2013




     All publicly available OIG reports (including this report) are accessible through
                                   NRC‟s Web site at:
                  http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  March 14, 2013


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S SAFETY TRAINING AND
                            DEVELOPMENT FOR TECHNICAL STAFF
                            (OIG-13-A-14)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Safety Training and Development for Technical Staff.

The report presents the results of the subject audit. Agency comments provided at the
March 4, 2013, exit conference have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials and Waste Safety Team, at
415-5914.

Attachment: As stated
                              Audit of NRC‟s Safety Training and Development for Technical Staff




EXECUTIVE SUMMARY

       BACKGROUND


       The Nuclear Regulatory Commission (NRC) licenses individuals and
       organizations to use radioactive materials and strives to ensure that
       licensees perform at acceptable safety levels. NRC‟s workforce is
       responsible for overseeing licensee performance and needs to be properly
       trained to carry out this important safety function. NRC provides safety
       training for its workforce through the Training and Development
       organization, within the Office of the Chief Human Capital Officer (Human
       Capital Office).


       Systems Approach to Safety Training

       NRC‟s Training and Development Strategic Plan states that the agency
       conducts training programs in accordance with the five elements of the
       systems approach to training (Analysis, Design, Development,
       Implementation, and Evaluation). The systems approach model, known
       as ADDIE, is commonly used by many training organizations. The ADDIE
       model describes a structured methodology to help ensure that training
       investments achieve desired performance outcomes. Well-designed
       training and development programs are linked to goals and to the skills
       and competencies needed for effective job performance. Identifying
       training program needs is the first step to planning and implementing an
       effective training program.


       Training Needs Assessments

       The Office of Personnel Management provides direction and guidance on
       identifying training needs through training assessments. A training needs
       assessment is the process of identifying the “gap” between performance
       required and current performance. An Occupational Training Needs
       Assessment examines the skills, knowledge, and abilities required for
       affected occupational groups. Occupational assessments identify how
       and which occupational gaps exist. The assessment also examines new
       ways to perform work that can eliminate the gaps.


                                      i
                        Audit of NRC‟s Safety Training and Development for Technical Staff



OBJECTIVE

The audit objective was to determine if NRC‟s process for identifying
safety training needs efficiently and effectively prepares staff to perform
oversight activities to assure protection of public health and safety and the
environment.

RESULTS IN BRIEF

Occupational Training Needs Assessments Rarely Conducted

NRC rarely conducts occupational training needs assessments for staff
positions responsible for performing safety oversight activities, and the
existing needs assessments are not formally reviewed on a defined basis.
Federal regulations require occupational training needs assessments;
however, the agency does not have defined procedures identifying when
and how to perform new or review existing occupational training needs
assessments. Therefore, NRC is not able to fully assure that its overall
training process efficiently and effectively prepares staff to perform safety
oversight activities.

RECOMMENDATIONS

This report makes two recommendations to improve the efficiency and
effectiveness of the agency‟s safety related training.

AGENCY COMMENTS

An exit conference was held with the agency on March 4, 2013. At this
meeting, agency management provided supplemental information that has
been incorporated into this report as appropriate. As a result, agency
management stated their general agreement with the finding and
recommendations in this report and opted not to provide formal comments for
inclusion in this report.




                                ii
                                          Audit of NRC‟s Safety Training and Development for Technical Staff



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        I.     BACKGROUND ................................................................................. 1

        II.    OBJECTIVE ....................................................................................... 4

        III.   FINDING ............................................................................................ 4

                      RECOMMENDATIONS ................................................................... 10

        IV.    AGENCY COMMENTS.................................................................... 11

        APPENDIX

               OBJECTIVE, SCOPE, AND METHODOLOGY ................................ 12




                                                   iii
                                            Audit of NRC‟s Safety Training and Development for Technical Staff




I.      BACKGROUND


                The Nuclear Regulatory Commission‟s (NRC) primary mission is to license
                and regulate the use of radioactive materials for civilian purposes to
                ensure adequate protection of public health and safety and the
                environment. NRC licenses individuals and organizations to use
                radioactive materials and strives to ensure that licensees perform at
                acceptable safety levels. NRC‟s workforce is responsible for overseeing
                licensee performance and needs to be properly trained to carry out this
                important safety function.


                Safety Training at NRC

                NRC provides safety training1 for its workforce through the Training and
                Development organization, within the Office of the Chief Human Capital
                Officer (Human Capital Office). Training and Development staff also
                manage the Technical Training Center in Chattanooga, Tennessee, and
                the Professional Development Center at NRC headquarters in suburban
                Maryland, just outside of Washington, DC.2 NRC staff attend safety
                training at these locations. Staff also attend safety training at locations
                other than NRC depending on the availability and the determined need for
                the training courses offered at other venues.

                Systems Approach to Safety Training

                NRC‟s Training and Development Strategic Plan states that the agency
                conducts training programs in accordance with the five elements of the
                systems approach to training. The systems approach model, known as
                ADDIE, is commonly used by many training organizations. The ADDIE
                model describes a structured methodology to help ensure that training



1
 For this audit, OIG has defined safety training as training that prepares NRC staff to ensure the
adequate protection of public health and safety and the environment in accordance with NRC regulations.
2
 Staff at the Technical Training Center manage technical training to meet needs defined by formal
qualification and training programs. Staff at the Professional Development Center typically manage
professional training in such areas as communications, computer applications, equal employment
opportunity, management, supervision, acquisition, and financial management.


                                                    1
                        Audit of NRC‟s Safety Training and Development for Technical Staff



investments achieve desired performance outcomes. The model‟s five
elements are as follows:
                                     Figure 1: ADDIE model
      (1) Analyzing skill or
      competency gaps to identify
      learning objectives and
      performance outcomes.

      (2) Designing the training
      to cover the learning
      objectives to achieve the
      performance outcomes.

      (3) Developing the training
      modules and materials.               Source: OIG generated

      (4)   Implementing the course or program.

      (5)   Evaluating the training to ensure that it is both effective and
            efficient and achieves the desired results.

Well-designed training and development programs are linked to goals and
to the skills and competencies needed for effective job performance.

Identifying training program needs is the first step to planning and
implementing an effective training program. A properly executed
“Analysis” element of the ADDIE model identifies training needs and
facilitates a smooth transition through the remaining elements.

Training Needs Assessments


The Office of Personnel Management (OPM) provides Federal agencies
with guidance and tools that assist agencies in achieving their strategic
goals and creating a highly trained workforce. OPM provides direction
and guidance on identifying training needs through training assessments.
Training needs assessments identify performance requirements and the




                                2
                       Audit of NRC‟s Safety Training and Development for Technical Staff



knowledge, skills, and abilities needed by an agency„s workforce to
achieve the requirements. A training needs assessment is the process of
identifying the “gap” between performance required and current
performance. When a difference exists, the assessment explores the
causes and reasons for the gap and methods for closing or eliminating the
gap.


OPM identifies three levels of training needs assessments
(Organizational, Individual, and Occupational).

      An Organizational Assessment evaluates the level of organizational
      performance. An assessment of this type will determine what skills,
      knowledge, and abilities an agency needs. It determines what is
      required to alleviate the problems and weaknesses of the agency
      as well as to enhance strengths and competencies.

      An Individual Assessment analyzes how well an individual
      employee is performing a job and determines the individual's
      capacity to do new or different work. An individual assessment
      provides information on which employees need training and what
      kind.

      An Occupational Training Needs Assessment examines the skills,
      knowledge, and abilities required for affected occupational groups.
      Occupational assessments identify how and which occupational
      gaps exist. The assessment also examines new ways to perform
      work that can eliminate the gaps.

Occupational training needs assessments occur during the “Analysis”
element of the ADDIE model.




                               3
                                              Audit of NRC‟s Safety Training and Development for Technical Staff



II.     OBJECTIVE

                The audit objective was to determine if NRC‟s process for identifying
                safety training needs efficiently and effectively prepares staff to perform
                oversight activities to assure protection of public health and safety and the
                environment.3



III.    FINDING

                NRC has made efforts to prepare its workforce to perform oversight
                activities to assure protection of public health and safety and the
                environment. However, NRC can provide safety training to staff in a more
                efficient and effective way by conducting occupational training needs
                assessments on a defined basis.

                NRC rarely conducts occupational training needs assessments for staff
                positions responsible for performing safety oversight activities, and the
                existing needs assessments are not formally reviewed on a defined basis.
                Federal regulations require occupational training needs assessments;
                however, the agency does not have defined procedures identifying when
                and how to perform new or review existing occupational training needs
                assessments. Therefore, NRC is not able to fully assure that its overall
                training process efficiently and effectively prepares staff to perform safety
                oversight activities.

                Federal Regulation and Standards

                Federal agencies have the primary responsibility for establishing,
                operating, maintaining, and evaluating their training programs in support of
                achieving their missions and goals. OPM specifies that agency employee
                developmental plans and programs should be designed to build or support
                an agency workforce capable of achieving agency mission and


3
 The original objective for the audit, as noted in OIG‟s fiscal year 2012 Annual Plan, was to determine if
NRC‟s overall training process adequately and efficiently prepares staff to perform oversight activities to
assure protection of public health and safety and the environment. This objective was revised during
audit fieldwork to focus on the implementation of the “Analysis” element of the ADDIE model.


                                                      4
                                                Audit of NRC‟s Safety Training and Development for Technical Staff



                   performance goals and facilitating continuous improvement of employee
                   and organizational performance.

                   Federal Regulation

                   Federal regulation4 requires agencies to develop and maintain plans and
                   programs that:

                           Identify mission-critical occupations and competencies.

                           Identify workforce competency gaps.

                           Include strategies for closing competency gaps.

                   The regulation also requires that agencies plan, program, and evaluate
                   training for both short- and long-range program needs by occupations,
                   organizations, or other appropriate groups.

                   Federal Standards

                   The Government Accountability Office‟s Standards for Internal Control in
                   the Federal Government5 state that management should ensure skill
                   needs are continually assessed and that the organization is able to obtain
                   a workforce that has the required skills that match those necessary to
                   achieve organizational goals. Additionally, the standards state that
                   management needs to identify appropriate knowledge and skills needed
                   for various jobs and provide the needed training.

                   Occupational Training Needs Assessments Rarely Conducted

                   NRC rarely conducts new or reviews existing occupational training needs
                   assessments on a defined basis for staff positions responsible for
                   performing safety oversight activities. Human Capital Office management
                   asserts that NRC program offices conduct some form of training needs
                   assessments for mission-critical positions; however, NRC management



4
    Title 5, Code of Federal Regulations, Part 410, Training.
5
    GAO/AIMD-00-21.3.1, November 1999.

                                                        5
                                              Audit of NRC‟s Safety Training and Development for Technical Staff



                  and staff were able to provide documentation supporting only two
                  assessments.

                  Occupational Needs Assessments at NRC

                  NRC management and staff provided two occupational training needs
                  assessments in response to Office of the Inspector General (OIG)
                  requests. One of the assessments, an update to an earlier assessment,
                  focused on the Reactor Oversight Process.6 NRC‟s implementation of the
                  revised Reactor Oversight Process significantly changed the jobs of the
                  site-based and regional office-based reactor inspectors. A variety of tasks
                  were eliminated while other tasks remained but were modified. In early
                  2000, a contractor7 updated the inspector task lists from the existing
                  needs assessment. The updated lists reflected changes to those
                  positions resulting from implementation of the Reactor Oversight Process.
                  This reactor inspector occupational needs assessment was completed in
                  2001 and has not been formally reviewed since. Completed in 2006, the
                  other needs assessment provided to OIG auditors was for a supervisory
                  curriculum course design (not specifically for safety related training).

                     Figure 2: Indian Point Nuclear Power Plant, Buchanan, New York




                                Source: NRC

6
 NRC‟s Reactor Oversight Process is the agency‟s program to inspect, measure, and assess the safety
and security performance of commercial nuclear power plants and to respond to any decline in
performance.
7
    Los Alamos National Laboratory.


                                                      6
                                           Audit of NRC‟s Safety Training and Development for Technical Staff



               NRC has not conducted occupational training needs assessments for staff
               positions responsible for performing safety oversight activities of nuclear
               materials. Multiple agency offices have responsibility for a diverse array of
               regulated activities.8 A senior manager stated that office staff do not
               conduct needs assessments because staff are already aware of the
               knowledge gaps in the program area. The manager added that staff
               intuitively identify training needs.

               How NRC Staff Identify Training Needs

               Instead of performing required occupational training needs assessments,
               Human Capital Office managers identify training needs through dialogue
               with NRC program office management and staff. The Human Capital
               Office responds to training requests from program offices, rather than
               systematically performing training needs assessments to identify the gaps
               between required and current performance. Training and Development
               staff and program office technical staff typically identify training needs
               through dialogue with each other. Management also believes that this
               informal dialogue is more efficient given the size of NRC. Human Capital
               Office management confirmed that, typically, these discussions are not
               formally documented.

               The Importance of Staff Receiving the Appropriate Training

               A properly trained workforce is essential for the
               oversight of licensee safety performance. On the
               most recent 2012 OIG Safety Culture and Climate
               Survey9 results, NRC‟s workforce gave high marks on
               training for preparing staff to do their jobs.
               Additionally, there was high agreement that staff have
               sufficient opportunities to receive training to improve
               the skills needed for their current jobs. However, a
               senior NRC manager noted that, if asked, most staff


8
 NRC regulates nuclear materials used for medical, industrial, and academic uses. NRC also regulates
source material facilities, uranium recovery facilities, and fuel cycle facilities.
9
 Since 1998, OIG has worked with a contractor to conduct a survey approximately every 3 years of
NRC‟s workforce to (1) measure the NRC‟s safety culture and climate, (2) compare results to previous
surveys of NRC employees, and (3) compare results to U.S. Government and national benchmarks.


                                                   7
                                               Audit of NRC‟s Safety Training and Development for Technical Staff



                  would agree that more training is better. The manager cautioned that
                  receiving more training is not always the answer, adding that NRC must
                  determine whether employees receive the appropriate training needed to
                  perform their jobs. The manager continued that opportunity costs exist
                  with all training. The manager explained that while away at training
                  courses, employees‟ work is either transferred to another employee or
                  delayed.

                  Human Capital Office staff confirmed the manager‟s view on the
                  importance of staff receiving the appropriate training by providing an
                  example of the problems encountered with a recently developed civil
                  engineering codes course. The intent of the course was to reinforce the
                  necessary understanding of general codes and standards commonly used
                  during civil/structural construction activities to new construction inspectors.
                  However, students gave the course mixed reviews – more negative than
                  positive. When the course was first developed, the Human Capital Office
                  confirmed that quite a bit of unnecessary information was included. Staff
                  met with the program office and revised the course, removing items not
                  related to civil engineering codes for new reactor construction from the
                  curriculum. A Human Capital Office manager stated that a formal
                  occupational training needs assessment would have probably helped
                  prevent the problems with the course. The manager added that there are
                  always concerns that something is being left out of the training and the
                  tendency is to put more information in than is needed. The revised course
                  is now presented over 1 week rather than 2 weeks.

                  Technological Advances

                  As technology advances, NRC must be able to keep pace. Rapidly
                  advancing nuclear technologies affect how NRC regulates licensees.
                  Laser enrichment, digital instrumentation and controls, and mixed oxide
                  fuel10 fabrication are examples of new and evolving technologies that NRC
                  is responsible for regulating. In these cases, NRC must ensure that staff
                  who review and inspect licensees using new technologies are fully
                  prepared to perform their duties. Occupational needs assessments, rather
                  than dialogue, are an essential tool when determining occupational
                  training needs for advancing technologies.

10
     Mixed oxide fuel is a blend of uranium and plutonium oxides.


                                                       8
                                        Audit of NRC‟s Safety Training and Development for Technical Staff



              Procedures

              Existing operating procedures do not identify when and how to perform
              new or review existing occupational training needs assessments. For
              example, a Human Capital Office procedure11 states that training courses
              at NRC are developed and maintained using a systems approach to
              training. However, this procedure begins at the point where a training
              need has already been identified and does not mention any form of
              occupational training needs assessment as a means to identify training
              needs, knowledge, skills, abilities, and gaps.

              During the course of this audit, Human Capital Office management
              approved a new procedure12 that describes a systematic approach to
              training and cites ADDIE as the process to use. The procedure identifies
              skills, knowledge, and abilities, but does not explain how the analysis is to
              be conducted to identify the skills, knowledge, and abilities and identify
              gaps.

              The procedure also does not establish a standard to which the analysis
              must be done.

              Opportunities Missed for Efficient and Effective Training

              NRC may not be fully aware of gaps between required performance and
              current performance for staff that perform safety oversight activities. By
              not conducting occupational training needs assessments, NRC risks not
              identifying gaps in knowledge, skills, and abilities. Inefficient and
              ineffective training can be the result of not successfully identifying these
              gaps.

              NRC is currently in a flat budget environment that is likely to continue. As
              a result, NRC will be challenged to use its training budget efficiently and
              effectively. In fiscal year 2012, NRC used approximately $15.2 million and



11
  Human Resources Training and Development Operating Procedure No. 0406, Training Program
Development Process, dated September 9, 2009.
12
  Human Resources Training and Development Operating Procedure No. 0406a, Revision 0, Systematic
Training Program Development Process, dated September 28, 2012.


                                                9
                        Audit of NRC‟s Safety Training and Development for Technical Staff



50 full-time equivalent staff to administer training. Without a structured
methodology that includes identification of training needs before programs
are developed, there is the potential for resources to be wasted on the
wrong training – be it too much or not enough. Additionally, while
dialoguing is a way to identify training needs, it should not take the place
of conducting a training needs assessment. By not documenting training
discussions, knowledge and experience may be lost because no history or
timeline exists.


Recommendations

OIG recommends that the Executive Director for Operations:

  1.   Develop and implement procedures to identify when and how to
       perform occupational training needs assessments for safety
       related positions.

  2.   Develop and implement procedures to formally review existing
       occupational training needs assessments for safety related
       positions on a defined basis.


Summary/Conclusion

Identifying competencies, skills, knowledge, abilities, and gaps in training
needs in a holistic manner provides a basis for delivering a more efficient,
comprehensive, and effective training program. As the agency identifies
competency gaps through occupational needs assessments, it can revise
and update training to provide the needed competencies. This audit
focused on the implementation of the “Analysis” element of the ADDIE
model. The Analysis element is only the first step of a structured
methodology to ensure that training investments achieve desired
performance outcomes. The agency must remain committed to
conducting training programs in accordance with all five elements of the
systems approach to training. The report‟s recommendations specifically
focus on safety training for technical staff. However, OIG contends that
implementing the recommendations for all training at NRC could increase
the efficiency and effectiveness of NRC‟s overall training program.


                               10
                                Audit of NRC‟s Safety Training and Development for Technical Staff



IV.   AGENCY COMMENTS

         An exit conference was held with the agency on March 4, 2013. At this
         meeting, agency management provided supplemental information that has
         been incorporated into this report as appropriate. As a result, agency
         management stated their general agreement with the finding and
         recommendations in this report and opted not to provide formal comments for
         inclusion in this report.




                                       11
                                 Audit of NRC‟s Safety Training and Development for Technical Staff

                                                                                        Appendix


OBJECTIVE, SCOPE, AND METHODOLOGY

        OBJECTIVE

        The audit objective was to determine if NRC‟s process for identifying
        safety training needs efficiently and effectively prepares staff to perform
        oversight activities to assure protection of public health and safety and the
        environment.

        SCOPE

        This audit focused on how NRC identifies training needs. Specifically, the
        audit concentrated on NRC‟s implementation of the “Analysis” element of
        the ADDIE model which is used to identify training needs. We conducted
        this performance audit at NRC headquarters (Rockville, Maryland) from
        August 2012 through December 2012. Internal controls related to the
        audit objectives were reviewed and analyzed. Throughout the audit,
        auditors were aware of the possibility or existence of fraud, waste, or
        misuse in the program.

        METHODOLOGY

        The audit team reviewed relevant criteria, including Executive Order
        11348, Providing for the further training of Government employees; Code
        of Federal Regulations, Title 5, Part 410, Training; and OPM training
        requirements for Federal agencies. The team reviewed NRC’s Strategic
        Human Capital Plan Fiscal Year 2010-2014, planning documents, OIG
        and Government Accountability Office reports, NRC office Operating
        Procedures, and NRC Inspection Manual Chapters. Staff reviewed best
        practices for identifying training needs.

        At NRC headquarters, auditors interviewed staff and management
        (including Technical Training Center management) to gain an
        understanding of their roles and responsibilities related to identifying
        safety training at NRC. Additionally, OIG interviewed program office
        directors with safety oversight responsibilities and each of the four
        Regional Administrators.



                                        12
                        Audit of NRC‟s Safety Training and Development for Technical Staff



We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

The audit work was conducted by Sherri Miotla, Team Leader; Robert
Woodward, Audit Manager; Levar Cole, Audit Manager; Maxinne Lorette,
Senior Auditor; and Kevin Nietmann, Senior Technical Advisor.




                               13
